RULE 33.1(h) CERTIFICATE OF COMPLIANCE
No. 20-609
GANNETT CO., INC., THE GANNETT BENEFIT PLANS COMMITTEE, and JOHN DOES 1-10,
Petitioners,
v.
JEFFREY QUATRONE, on behalf of GANNETT CO., INC. 401(K) SAVINGS PLAN and all
others similarly situated,
Respondent.
As required by Supreme Court Rule 33.1(h), I, Tacy F. Flint, certify that the
Reply in Support of the Petition for a Writ of Certiorari in the foregoing case
contains 2,949 words, excluding the parts of the document that are exempted by
Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on March 23, 2021.
/s/ Tacy F. Flint
TACY F. FLINT
SIDLEY AUSTIN LLP
One South Dearborn
Chicago, IL 60603
(312) 853-7000

